                 UNITED STATES GOVERNMENT
                 National Labor Relations Board
                 Office of Inspector General

Memorandum


March 17, 2004

To:       Vanita S. Reynolds
          Library and Administrative Services Branch Chief

From:     Jane E. Altenhofen
          Inspector General

Subject: Inspection Report No. OIG-INS-31-04-04: Review of Westlaw Usage

       We initiated this inspection in January 2004 to evaluate controls over Westlaw and determine
whether the service was used appropriately at the National Labor Relations Board (NLRB or Agency).
Payments to Westlaw were processed correctly and an automatic log-off feature was enacted to
minimize usage.

         Agency policies are outdated and do not reflect current practices. Thirty-three Westlaw users
who departed before November 1, 2003 had active user accounts in November 2003 - about half of
these accounts were still active on December 17, 2003. Five Westlaw users’ accounts were accessed
after the employee’s departure. A December 17, 2003 list of users provided by Westlaw showed 82
general user identifications not assigned to individual users. We identified one user with questionable
activity and referred this for potential investigation.

SCOPE

        We reviewed Westlaw Usage Reports for September and December 2003, a list of users
provided by Westlaw dated December 17, 2003, a list of users provided by the Library Section, and
information provided by the Human Resources Branch to identify former Agency employees. We
evaluated controls over the use of services, including whether automatic time-out features were used
and the Library Section reviewed user activity. We evaluated the process used to authorize invoices for
payment and determined the accuracy of those payments. We analyzed Westlaw usage from
September 1, 2003 through March 3, 2004 for potential misuse.

     We reviewed Agency policies and procedures including Administrative Bulletin (AB) 93-47,
WESTLAW Instructions and Guidelines for Direct Searchers in the NLRB Library – Pilot Project,
dated May 14, 1993; AB 94-55, WESTLAW Instructions for Direct Users in All Field and Division of
Judges Offices, dated June 29, 1994; Administrative Policy Circular (APC) 99-03, Use of Agency
Telecommunication Resources, dated January 22, 1999; and APC 99-11, Providing WESTLAW from
Home/Personal Computers, dated August 5, 1999.

        We conducted this review from January through March 2004. This review was done in
accordance with the Quality Standards for Inspections issued by the President's Council on Integrity
and Efficiency.

BACKGROUND

        The NLRB contracts with the West Publishing Corporation, a division of Thomson West, to
access the Westlaw research service. Westlaw is an on-line legal research service that provides access
to an extensive collection of legal resources, news, business, and public records.

         New users are added by the Library Section through the Internet and are given access
immediately. The Library Section also deactivates user identifications of departing employees through
the Internet. The Library Section is notified to add users by the employee requesting this access,
support staff employee, or the supervisor through e-mail, telephone, or in person. Any support staff
employee requesting Westlaw must have their supervisors’ approval in writing. E-mails are accepted as
written approvals. If the request is made in person, the Library Section will verify the employee's job
classification before granting access. This is usually accomplished with an Outlook directory search.

         Westlaw users have access to all fixed rate databases. These include databases on state and
federal cases, statutes, law reviews, and other secondary resources. Users who require additional
access can contact the Library Section for assistance. However, other arrangements are normally made
to locate the information rather than using the non-fixed rate databases. Only Library Section personnel
have access to non-fixed rate databases.

        The Agency is charged a standard fee for all users to have access to fixed rate databases.
Usage, however, directly affects the fixed rate charged the following year. Westlaw services cost the
Agency approximately $268,000 for Fiscal Year 2003. As of December 17, 2003, 1,485 Westlaw
individual user identifications existed. The Agency is billed monthly for services. Invoices are sent to
the Library Section for review. Once approved, invoices are forwarded to the Finance Branch for
payment.

RESULTS

Agency Policy

       Agency policies do not reflect current practices regarding the use of Westlaw. Significant
changes have occurred since the Agency last issued policy or guidance approximately 10 years ago.
These policies, AB 93-47 and AB 94-55, were developed at a time when each office had a designated
                                                     2
Westlaw terminal. Since then, the Agency's use of Westlaw has evolved and users now access
Westlaw on their personal computers. Westlaw can now also be accessed at any location with Internet
access. The Agency pays a fixed fee for access to standard databases. Remote access is addressed in
APC 99-11.
        The major differences between the outdated policies and current practices appear below.

    Policy                                      Current Practice
    • Passwords obtained from office supervisor • Passwords obtained from Library Section
                                                   personnel
    • Use NLRB Computer Search Request          • No longer used
        Form (Form NLRB-5302)

    •   Search information recorded in Westlaw            •   No longer used
        Computer Search Log, Form NLRB-
        5304A

    •   Standard format for client ID                     •   No longer used

    •   Printing documents discouraged                    •   Printing documents encouraged

    •   Monthly billing report showing usage              •   Monthly billing report sent to the Library
        details for each office sent to supervisors           Section


Westlaw User Accounts

        The Agency had 82 general user identifications assigned to a particular office, but not related to
a specific Westlaw user. Also, former employees' accounts were not disabled and were accessed after
the employees left the Agency. We identified 171 employees who left the Agency between January 2,
2002 and October 31, 2003 and based upon their occupational series were likely Westlaw users.
Records maintained by the Library Section as of November 2003 identified 33 of these former
employees as still having active Westlaw user accounts. Of these, 17 remained active on the December
2003 user list generated by Westlaw.

        The Westlaw Usage Reports for September and December 2003 showed that five accounts
were accessed after the employee’s departure date. Four instances were in September 2003 and one
was in December 2003. This activity resulted in an additional $927.93 in total charges that will be
factored into the calculation of the next year's fee.

        The Library Section is responsible for deactivating Westlaw services for departed employees.
Library Section employees stated that they are usually made aware of employee departures through the

                                                      3
Agency's newsletter. User access is deactivated on-line and the change takes effect immediately.
Library Section employees stated that improvements could be made to their methodology.

         Form NLRB-4197, Certification for Release of Final Salary Check, is used to ensure that
departing employees' administrative matters are in order. The form is used to document items such as
the return of office keys, identification cards, and accountable property. The form is routed through the
Library Section to ensure that materials are returned. This form could be used to notify the Library
Section to deactivate Westlaw accounts.

        In response to a suggestion we made in our draft report, management stated that they modified
Form NLRB-4197 to replace the check off box entitled “Other Library Material” with one titled
“Databases Access” and instructed the Library Section staff to disable Westlaw passwords within 48
hours of notification of employee departure. Management also stated that they will begin using both the
bi-weekly Accession/Separation listing provided by the Human Resources Branch and the Field Losses,
Commitments, and Transfers listing provided by the Division of Operations-Management to verify
information on employee departures.

         A December 17, 2003 list of users provided by Westlaw contained 82 general user
identifications not assigned to individual users. Thirty-five of these were used to access Westlaw in
September 2003. During the first several years, Westlaw was accessed at the Agency through
dedicated terminals. Originally, only the Library Section had access to Westlaw through a dedicated
terminal in the Library. Access to the dedicated terminal was then provided to other Headquarters
employees, and later field employees were provided access to dedicated terminals in the field offices.
In 1995 and 1997 individual passwords were assigned for Westlaw use, eliminating the need for the
general user identifications.

        Temporary employees and interns who used Westlaw were given the password for the general
user identification in their department or office. This leaves the Agency vulnerable for misuse because
temporary employees and interns are able to access the general user identifications after they leave the
Agency. Also, general user identifications make it more difficult to hold current employees accountable
for inappropriate use of the service.

        In response to a suggestion made in our draft report, management stated that they have
deactivated all general user identifications and will not issue them in the future. They noted that all new
employees needing Westlaw access would be issued unique passwords.

Review of User Activity

        The Library Section does not monitor Westlaw usage. They review the dollar amount on all
invoices and scan the monthly Westlaw Payer Billing Detail report if the monthly charge is more than
$100 greater than the fixed monthly fee. Information provided monthly by Westlaw includes an invoice,
Westlaw Payer Billing Detail for the entire Agency, and other usage reports by account, usually office.

                                                      4
Suggestion

       We suggest that the Library and Administrative Services Branch Chief revise Agency policies
for Westlaw to reflect current practices.




                                                 5
